                                                         United States Department of Stale
                                                         and the Broadcasting Board of Governors

                                                         Office of Inspector General


                                                            JAN 15 2013


MEMORANDUM

TO:            IBB - Richard M. Lobo                .n./7
FROM:          OIG - Harold W. Geisel   /fH;./7
SUBJECT:       Review of Broadcasting Board of Governors' Operations in Phnom Penh,
               Cambodia, ISP-IB-13-09

Executive Summary

        The Office oflnspector General (OIG) team found no serious management issues at
either the Voice of America (VOA) Khmer Service or the Radio Free Asia (RF A) operation in
Cambodia. At the time of the inspection, both organizations were facing the possibility of legal
sanctions on the part of the Royal Government of Cambodia, which had summoned
representatives of VOA and RF A to complain about reporting that both organizations had
produced.

Purpose and Scope

        In connection with the OIG inspection of Embassy Phnom Penh, a two-person team
consisting of public diplomacy and management inspectors reviewed Broadcasting Board of
Governors' (BBG) operations in Cambodia, focusing on VOA and RF A news operations, neither
of which has resident American staff. The inspection took place in Washington, DC, between
September 10 and 14,2012, and in Phnom Penh, Cambodia, between September 26 and October
13,2012.

Cambodian Government Complaints

        Most Cambodian media are either progovernment or reluctant to criticize the government
due to intimidation. RF A and VOA reporting stands apart for dealing with issues that other
media outlets do not address, including illegal land seizures, illegal logging, chaJJenges to
freedom of expression, and questions of democratic governance. While the inspectors were in
Phnom Penh, the Royal Government of Cambodia summoned representati ves of foreign
broadcasters to a meeting to complain about their coverage. Although no clear outcome emerged
from that meeting, the threat of legal sanctions against the broadcasters remained . In addition,
the Royal Government of Cambodia announced a 20-year prison sentence for sedition for Mam
Sonando, a local radio broadcaster station that carries VOA and RF A programming. Embassy
Phnom Penh played an invaluable, low-key role throughout the period to support RF A and VOA
while preserving VOA's journalistic independence and integrity.


                                                1
                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


     Administrative Issues

             At the time of the inspection, BBG was exploring the possibility ofVOA and RFA staffs
     sharing office space and facilities in Phnom Penh. This option appears to be feasible. The VOA
     Khmer Service operates with modest infrastructure in rented office space, leased at a cost of
     approximately $30,000 per year. Should the decision to combine offices go forward, BBG could
     realize annual savings by funding a single facility in Phnom Penh and staffing it with stringers
     and other support personnel. In addition, VOA staff reports that it has taken steps to regularize
     the payment of office expenses to segregate properly support costs from salary payments. The
     team did not review administrative support operations in detail during this review.

     Security Issues

             The memorandum of understanding between the Department of State and BBG with
     respect to security services explicitly exempts VOA correspondents from chief of mission
     authority. Particularly in an environment where harassment and violence directed against
     journalists is common, the embassy can playa role in advising on security practices. The team
     found that RF A and VOA staff members were closely engaged with embassy personnel in
     addressing the Mom Sonando issue and have developed constructive relationships with embassy
     personnel.
(b)(2)(b)(6)




     cc:       Kelu Chao, Director, International Broadcasting Bureau
               Barbara Tripp, Management Analyst, International Broadcasting Bureau




                                                2
                                   SENSITIVE BUT UNCLASSIFIED
